  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

GAS                   Government Auditing Standards
NSA                   National Security Agency
OIG                   Office of the Inspector General
                                                                           March 13, 2003

MEMORANDUM FOR INSPECTOR GENERAL, NATIONAL SECURITY AGENCY

SUBJECT: Review of the Quality Control System at the National Security Agency
         Inspector General Office of Audits (Report No. D-2003-6-005)


         We are providing this memorandum for your information and use. The
Government Auditing Standards require that audit organizations that conduct audits in
accordance with the standards have an appropriate internal quality control system in place
and undergo an external quality control review every 3 years by an organization not
affiliated with the organization being reviewed. Our review of the National Security
Agency (NSA) Office of the Inspector General (OIG) Office of Audits was to ensure
compliance with Government Auditing Standards (GAS). As the organization that has
audit policy and oversight responsibilities for audits in the DoD, we facilitated and
oversaw the conduct of this external peer review of the NSA OIG Office of Audits. To
avoid unnecessary duplication and disruption, the audit external quality control review of
NSA was done concurrently with the management review of the NSA OIG conducted by
the Office of the Assistant Inspector General for Intelligence, Office of the Inspector
General of the Department of Defense.

Background. The foreign intelligence mission of the NSA is both national and defense
in nature, and it encompasses signals intelligence, information security, and operations
security. The Office of Audits is responsible for producing quality results in terms of
making constructive recommendations to significantly improve NSA operations;
identifying funds to be put to better use; and preventing and detecting fraud, waste, and
mismanagement in accomplishing the NSA mission. The Inspector General, NSA is
delegated the authority from the Director, NSA/Chief, Central Security Service to
conduct audits. Audits within NSA are executed by the Office of Audits under the
management and direction of the Senior Assistant Inspector General for Audits. The
National Security Agency/Central Security Service Office of Audits Office of the
Inspector General Audit Manual (hereafter referred to as Audit Manual), January 2002,
provides guidance on the operation of audits within NSA.

Quality Control Review Objectives. The objectives of the review were to determine
whether the system of quality control for the Office of Audits in effect for the year ended
June 30, 2002, was designed to provide the NSA OIG with reasonable assurance of
material compliance with established policies, procedures, and government auditing
standards in the conduct of its audits and that the system of quality control was being
complied with for the year then ended. The Office of Audits issued 11 final audit reports
during July 2001 through June 2002, the period reviewed. Appendix A contains a
summary of the quality control review process.

Review Results. The system of quality control for the audit function of the NSA OIG in
effect for the year ended June 30, 2002, has been designed in accordance with established
policies, procedures, and government auditing standards. The Office of Audits complied
with the system of quality control for the year then ended to provide reasonable assurance
of material compliance with established policies, procedures, and government auditing
standards in the conduct of its audits. Our review did not disclose any material
weaknesses in the system of quality control for the Office of Audits. The quality control

                                             1
system had many quality policies, procedures, and practices that enhanced both audit
effectiveness and efficiency as well as skilled, competent staff; high quality audit manual
and policies; and well documented working papers that contained sufficient, competent,
and relevant evidence. We did make some observations where improvements could be
made in complying with government auditing standards and your internal audit policies
and procedures. These observations are not of sufficient significance to affect our overall
conclusion as expressed in this memorandum.

        Staff Qualifications. The NSA audit staff is highly experienced and collectively
possesses adequate proficiency to accomplish the work assigned as described in the Audit
Manual. However, the Office of Audits should have a more balanced training program,
better documentation of training, and a review requirement when there are disagreements
between the audit team and consultants or internal specialists.

We reviewed training and educational activity documentation for the period of January 1,
2001, through October 15, 2002, for the nine current full-time auditors on the NSA
Office of Audits staff. Overall, we found that all audit staff are receiving sufficient
training to meet the required continuing education requirements. There has been a heavy
emphasis on information technology course work to meet the continuing education
requirements including the 24 hours related to the government environment and
government auditing. Audit staff training should not be concentrated on information
technology for the 24-hour continuing professional education requirement because it
could be interpreted as not being specific or unique to the government environment.

The Qualifications standard requires individuals responsible for planning or directing an
audit, conducting substantial portions of the field work, or reporting on the audit under
GAS to complete at least 24 of the 80 hours of continuing professional education training
in subjects directly related to the government environment and to government auditing.
If the audited entity operates in a specific or unique environment, auditors should receive
training that is related to that environment. The audit organization is responsible for
establishing and implementing a program for meeting the continuing education and
training requirements and maintaining documentation of the education and training
completed. The GAS continuing education and training requirements are implemented
through the Audit Manual Section 201.3-201.8. The Qualifications standard also
indicates that an organization may need to employ personnel or hire outside consultants
knowledgeable in such areas as accounting, statistics, law, engineering, audit design and
methodology, automated data processing, public administration, economics, social
sciences, or actuarial science.

The General Accounting Office, Government Auditing Standards, “Interpretation of
Continuing Education and Training Requirements,” April 1991 states that the 24-hour
requirement calls for auditors to obtain 24 hours of continuing professional education in
subjects and topics directly related to the government environment and to government
auditing or the specific or unique environment in which the audited entity operates. The
April 1991 Interpretation goes on to provide guidelines on subjects and topics that would
qualify for the 24-hour requirement. In the past, General Accounting Office personnel
within the Government Auditing Standards division have responded to specific questions
related to information technology training as not qualifying for the 24-hour requirement.
The General Accounting Office personnel emphasized that the guidelines focus on course


                                             2
content such as knowledge of government accounting and auditing standards, legal and
regulatory requirements, and knowledge of government programs and activities necessary
for government auditors to perform quality audits of a governmental entity.

Emphasis on information technology training was caused by the emphasis on information
technology systems at NSA, sponsorship of information technology courses by the NSA
at no cost to the OIG, and the low training budget of the Office of Audits. However,
there are low-cost courses such as self-study courses on Performance Audits of
Governmental Entities and Yellow Book Government Auditing Standards that can
provide audit-related training to meet the 24-hour continuing professional education
requirements in government environment and auditing. The Office of Audits should have
a more balanced training program consisting of continuing professional education
involving the government environment and government auditing.

We also noted instances where continuing professional education hours were not shown
on the certificates of completion, and certificates were not provided. In some instances,
proof of class attendance was based on memorandum and travel documentation. The
Office of Audits should document hours of continuing professional education and course
completion when certificates are not provided.

In addition, the Audit Manual does not contain a requirement for review by an
appropriate level when there is a disagreement between an audit team and a consultant or
internal specialist.

        Independence. The OIG maintains its independence and is not impeded in
accomplishing its intended mission. Our review was performed based on the prior
independence standard which made the audit organization responsible for having policies
and procedures in place to help determine if auditors have any personal impairments.
The NSA OIG Office of Audits met the GAS independence standard requirements prior
to January 2003, when the new independence standard was effective. See scope
limitations indicated in Appendix A.

        Due Professional Care. The OIG auditors used sound judgment in conducting
their audits.

        Quality Control. The Office of Audits did not consistently use the prescribed
Audit Manual checklists, which are used by the auditor-in-charge, editor, and secretary to
process draft and final reports. One memorandum report, which included observations
based on an auditor’s review of a certified public accountant firm’s working papers, was
not cross-referenced to the supporting working papers and lacked evidence of an
independent referencing review of the audit report to supporting working papers. We
also identified an instance where, contrary to the Audit Manual, the person performing
the referencing validation was not entirely independent because the individual had been
part of the original audit project team. Office of Audits personnel indicated that staff
size, availability, and impact on schedule factor into the selection of the independent
person. The Office of Audits needs to ensure that persons performing referencing
validation have no direct relationship with the audit. According to the Senior Assistant
Inspector General for Audits, audits that ended in the period under evaluation used
different checklists because at that time NSA was going through a period of changing
from one audit manual to another.


                                            3
        Audit Planning. The planning process is sufficient to ensure that audits
addressing significant issues are performed and that resources are efficiently allocated to
complete those projects. An annual audit plan is prepared and issued and covers major
program and support areas. The plan is reasonable and audits carried over from year to
year are completed in a timely manner during the course of the next fiscal year before
new audits are begun. The NSA OIG meets established criteria for followup by
maintaining complete, accurate, and reliable records of the status of audit findings and
recommendations. Overall, we found that the audits performed were generally well
planned and executed with reports being issued in a timely manner.

       Supervision. In general, audit supervision at all levels was well provided to
ensure a quality report acceptable to management. Working papers of staff auditors are
reviewed in a timely manner by the auditor-in-charge. Generally, no one reviewed the
working papers of the auditor-in-charge. Instead of supervisory review of auditor-in-
charge working papers, the Senior Assistant Inspector General for Audits holds monthly
supervisory meetings, and meetings are also held with the Deputy Inspector General to
provide an additional level of supervision to the audit working papers. The Senior
Assistant Inspector General for Audits indicated that the structure within the Office of
Audits lacks layers/hierarchical structure, and their structure is not conducive to
supervisory review of auditor-in-charge working papers. The NSA OIG Office of Audits
had compensating/mitigating controls in place to ensure they met the supervision
standard.

        Evidence and Working Papers. On the whole, working papers provided
sufficient, competent, and relevant evidence to support audit findings and conclusions.
We found improper classification markings either higher or lower than should be on
some working papers and binders.

        Internal Controls. The audits met the standards for reviewing and reporting
internal controls. NSA OIG auditors substantively addressed internal controls during the
performance of the seven audits reviewed.

         Illegal Acts, Other Noncompliance and Abuse. There were no indications of
risk of illegal acts or other noncompliance for the reports we reviewed. Auditors did not
generally use legal counsel except on a case-by-case basis. We believe the Audit Manual
should be revised to include a mechanism to document whether or not legal review was
needed and obtained.

         Reports on Audits. Reports were well received by management. Findings and
conclusions were well supported and documented. Reports were clear, concise, and met
audit objectives. One report did not include a scope paragraph or a statement that the
audit was conducted in accordance with generally accepted Government Auditing
Standards, as required by GAS and the Audit Manual. One audit used only statements of
condition for the finding paragraph. The Audit Manual Section 755.3 requires condition,
criteria, cause, and effect.




                                             4
Appendix A. Quality Control Review Process

Scope
    The review team tested compliance with the NSA OIG’s system of quality control to the
    extent considered appropriate. These tests included a review of 7 of 11 audit reports
    issued between July 1, 2001, and June 30, 2002. The review team reviewed working
    papers for the selected audits, conducted interviews of professional and administrative
    staff members, and performed tests of documentation.

    Scope Limitations. The review was for the purpose of determining whether the NSA
    OIG internal quality control system was designed to provide reasonable assurance of
    material compliance with established policies, procedures, and government auditing
    standards in the conduct of its audits and was being complied with for the year reviewed.
    We conducted our review in conformance with standards and guidelines established by
    the President’s Council on Integrity and Efficiency. The review would not necessarily
    disclose all weaknesses in the system of quality control or all instances of lack of
    compliance with it because our review was based on selective tests. Because there are
    inherent limitations in the effectiveness of any system of quality control, departures from
    the system may occur and not be detected.

    Projection of any evaluation of a system of quality control to future periods is subject to
    the risk that the system of quality control may become inadequate because of changes in
    conditions or because the degree of compliance with the policies or procedures may
    deteriorate. GAS Amendment No. 3, Independence, January 25, 2002, requires that the
    audit organization should have an internal quality control system to help determine if
    auditors have any personal impairment to independence that could affect their
    impartiality or the appearance of impartiality. Our review period ended June 30, 2002;
    However, GAS Answers to Independence Standard Questions, July 2002, indicates that
    the independence standard’s provisions are applicable to all audits for periods beginning
    on or after January 1, 2003.


Methodology
    From October 2002 through February 2003, the external review team conducted a quality
    control review of the audit function for the Office of Audits in effect for the period
    July 1, 2001, through June 30, 2002. The team used the guidelines and checklists
    established by the President’s Council on Integrity and Efficiency as amended February
    2002 to ensure that the review was in conformance with GAS. The team used the
    President’s Council on Integrity and Efficiency checklist items to review:

        •   Staff Qualifications;
        •   Independence;
        •   Due Professional Care;
        •   Quality Control;

                                             6
       •   Audit Planning;
       •   Supervision;
       •   Evidence and Working Papers;
       •   Internal Controls;
       •   Illegal Acts, Other Noncompliance and Abuse; and,
       •   Reports on Audits.

    The review team adjusted the President’s Council on Integrity and Efficiency guidelines
    and checklists as appropriate to reflect the Office of Audits. The review team considered
    several factors in applying the President’s Council on Integrity and Efficiency guidelines,
    such as the size of the Office of Audits, the degree of operating autonomy allowed, and
    the nature of work. In conducting the review, the review team reviewed 7 of 11 audit
    reports issued in the period reviewed and associated working papers for the reports.

NSA Audit Policies and Procedures
    National Security Agency/Central Security Service Office of the Inspector General,
    Office of Audits, Audit Manual, January 2002, provides guidance on the operation of
    audits within NSA. Government Auditing Standards published by the U.S. Comptroller
    General are the criteria guiding auditors in their work to ensure quality and reliable audit
    results. Government Auditing Standards require that the internal quality control system
    established by the audit organization should provide reasonable assurance that it has
    adopted, and is following, applicable auditing standards and has established, and is
    following, adequate audit policies and procedures. The Department of Defense (DoD)
    Internal Audit Manual implements the Comptroller General’s auditing standards in DoD.

    To implement an internal quality control system, the Audit Manual specifically adopts
    and expands on the Comptroller General’s auditing standards, consistent with NSA
    authorities for use by its auditors.

DoD Intelligence Agency Audit External Review Process
    The review was done in accordance with the process established to facilitate the external
    reviews of the DoD intelligence agencies. As a part of this process, we established a
    review team of experienced senior auditors from the DoD intelligence organizations
    except for the organization under review. The OIG, DoD provided training and oversight
    for the review.




                                             7
Appendix B. Report Distribution


Other Defense Organizations
 Director, National Security Agency
    Inspector General, National Security Agency

Congressional Committees and Subcommittees, Chair and Ranking
  Minority Member
 Senate Committee on Appropriations
 Senate Subcommittee on Defense, Committee on Appropriations
 Senate Committee on Armed Services
 Senate Committee on Governmental Affairs
 House Committee on Appropriations
 House Subcommittee on Defense, Committee on Appropriations
 House Committee on Armed Services
 House Committee on Government Reform
 House Subcommittee on Government Efficiency, Financial Management, and
   Intergovernmental Relations, Committee on Government Reform
 House Subcommittee on National Security, Veterans Affairs, and International Relations,
   Committee on Government Reform




                                            8
Team Members
The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of the
Assistant Inspector General for Inspections and Policy of the Department of Defense
prepared this report. Personnel of the Office of the Inspector General of the Department
of Defense and other organizations who contributed to the report are listed below.

Carolyn R. Davis
Craig D. Campbell
Kenneth Feldman
Charles Grauze
Krista S. Gordon
